Visa

Date_________________________

CREDIT CARD AGREEMENT
In this Agreement the words you and your mean each and all of those who apply for the card or who signs the application. Card means a Visa® Credit Card
and any duplicates and renewals we issue. Account means your Visa Credit Card Line of Credit account with us. We, us and ours means this Credit Union.
1.

Responsibility. If we issue you a card, you agree to pay all debts and the
FINANCE CHARGE arising from the use of the card and the card account. For
example, you are responsible for charges made by yourself, your spouse and
minor children. You are also responsible for charges made by anyone else to
whom you give the card, and this responsibility continues until the card is
recovered. You cannot disclaim responsibility by notifying us, but we will close
the account for new transactions if you so request and return all cards. Your
obligation to pay the account balance continues even though an agreement,
divorce decree or other court judgement to which we are not a party may direct
you or one of the other persons responsible to pay the account. If more than one
person has applied for a card or signed the application, paragraph 15 below also
applies to your account. You agree that you will not use or allow anyone else to
use your card for any transaction that is illegal under applicable federal, state or
local law.

2.

Lost Card Notification. If you believe your credit card has been lost or stolen,
you will immediately call the Credit Union at: (207) 284-2444 or after hours 8009914961.

3.

Consumer Liability for Unauthorized Transactions. Your liability to the
Credit Union will not exceed $50.00 for unauthorized use of your card that occurs
prior to the time when you give notice of possible unauthorized use to the Credit
Union at PeoplesChoice Credit Union, 23 Industrial Park Rd, Saco, Maine 04072,
and (207) 284-2444 or 877-785-6328.

4.

Credit Line. If we approve your application, we will establish a selfreplenishing Line of Credit for you and notify you of its amount when we issue
the card. You agree not to let the account balance exceed this approved Credit
Line. Each payment you make on the account will restore your Credit Line by the
amount of the payment which is applied to principal. You may call us to request
an increase in your Credit Line, which must be approved by our loan department.
By giving you written notice our loan department may reduce your Credit Line
from time to time, or with good cause, revoke your card and terminate this
Agreement. Good cause includes your failure to comply with this Agreement, or
our adverse reevaluation of your creditworthiness. You may also terminate this
Agreement at any time, but termination by either of us does not affect your
obligation to pay the account balance. The cards remain our property and you
must recover and surrender to us all cards upon our request and upon termination
of this Agreement.

5.

Credit Information. You authorize us to investigate your credit standing when
opening, renewing or reviewing your account, and you authorize us to disclose
information regarding your account to credit bureaus and other creditors who
inquire of us about your credit standing.

6. Details About Your Monthly Payment.
(a) Monthly Statement. We will mail you a statement every month showing your
Previous Balance of purchases and cash advances, the current transactions on
your account, the remaining credit available under your Credit Line, the New
Balance of purchases and cash advances, the Total New Balance, the FINANCE
CHARGE due to date, and the Minimum Payment Required. If applicable,
monthly statements to one applicant shall constitute monthly statements to all
applicants.
(b) Minimum Payment. Every month you must pay at least the minimum Payment
within 25 days of your statement closing date. By separate agreement you may
authorize us to charge the minimum payment automatically to your share or share
draft account with us. You may, of course, pay more frequently, pay more than
the minimum payment, or pay the Total New Balance in full, and you will reduce
the FINANCE CHARGE by doing so. The Minimum Payment will be any
portion of the Minimum Payments shown on prior statements which remain
unpaid plus either (a) 2% of your Total New Balance or $20.00, whichever is
greater, or (b) your Total New Balance if it is less than $20.00. In addition, at any
time your Total New Balance exceeds your Credit Line, you must immediately
pay the excess upon our demand.
(c) How Payments Are Applied: The Payment is applied in the following order: First,
fees; second, finance charge; third, non-accruing balance (i.e. insurance
premiums); fourth, old purchases; fifth, old cash advances; sixth, current cash
advances (cycle to date); seventh, current purchases (cycle to date).

7. Finance Charges.
(a) When Finance Charge Begins. A finance charge will be imposed on cash
advances from the date made or from the first day of the billing cycle in which
the cash advance is posted to your account, whichever is later, and will
continue to accrue until the date of payment. A finance charge will be imposed
on purchases only if you elect not to pay the entire new balance of purchases
shown on your monthly statement within 25 days from the closing date of that
statement. If you elect not to pay the entire new balance of purchases shown on
your monthly statement within that 25 day period, a finance charge will be
imposed on the unpaid average daily balance of those purchases from the
statement closing date and will continue to accrue until the closing date of the
billing cycle preceding the date on which the entire new balance of purchases is
paid in full or until the date of payment if more than 25 days from the closing
date.
(b) Figuring the Finance Charge. The FINANCE CHARGE (interest) is
calculated at the periodic rate of: .825% per month, which is an ANNUAL
PERCENTAGE RATE of 9.9% or 1.15833 per month, which is an ANNUAL
PERCENTAGE RATE of 13.9%, based on your credit worthiness.
(i)
Cash Advances. The finance charge on cash advances for a billing cycle is
computed by applying the monthly periodic rate to the average daily balance,
which is determined by dividing the sum of the daily balances during the
billing cycle by the number of days in the cycle. Each daily balance is
determined by adding to the previous balance for cash advances (the outstanding cash advance balance of your account at the beginning of the billing cycle)
any new cash advances received and subtracting any payments as received or
credits as posted to your account, but excluding any unpaid finance charges.
(ii) Purchases. We figure the Finance Charge on your account by applying the
periodic rate to the “average daily balance” of your account (including current
transactions). To get the “average daily balance,” we take the beginning
balance of your account each day and subtract any payments or credits and any
unpaid finance charges. This gives us the daily balance. Then, we add all the
daily balances for the billing cycle together and divide the total by the number
of days in the billing cycle. This gives us the “average daily balance.”
8.

Default. You will be in default if you fail to make any Minimum Payment
within 25 days after your monthly statement closing date. You will also be in
default if your ability to repay is materially reduced by a change in your
employment, an increase in your obligations, bankruptcy or insolvency
proceedings involving you, your death or your failure to abide by this
Agreement. We have the right to demand immediate payment of your full
account balance if you default, subject to our giving you any notice required by
law.

9.

Using the Card. To make a purchase or cash advance, there are two alternative
procedures to be followed. One is for you to present the card to a participating
Visa plan merchant, to us or to another financial institution, and sign the sales
or cash advance draft which is imprinted with your card. The other is to
complete the transaction by using your Personal Identification Number (PIN) in
conjunction with the card in an Automated Teller Machine or other type of
electronic terminal that provides access to the Visa system. The monthly
statement will identify the merchant, electronic terminal or financial institution
at which transactions were made, but sales, cash advance, credit or other slips
cannot be returned with the statement. You will retain the copy of such slips
furnished at the time of the transaction in order to verify the monthly statement.
The Credit Union may make a reasonable charge for photocopies of slips you
request.

10. Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by sending us a credit
slip which we will post to your account. If your credits and payments exceed
what you owe us, we will hold and apply this credit balance against future
purchases and cash advances, or if it is $1 or more, refund it on your written
request or automatically after 6 months.
11.

Foreign Transactions. Purchases and cash advances made in foreign
countries and foreign currencies will be billed to you in U.S. dollars. The
conversion rate to dollars will be at wholesale market rate or the government
mandated rate, whichever is applicable, in effect one day prior to the
processing date.

Continued on Reverse Side

12. Plan Merchant Disputes. We are not responsible for the refusal of any plan
merchant or financial institution to honor your card. We are subject to claims
and defenses (other than tort claims) arising out of goods or services you
purchase with the card only if you have made a good faith attempt but have been
unable to obtain satisfaction from the plan merchant, and (a) your purchase was
made in response to an advertisement we sent or participated in sending to you;
or (b) your purchase cost more than $50 and was made from a plan merchant in
your state or within 100 miles of your home. Any other disputes you must
resolve directly with the plan merchant.
13. Security Interest. You pledge and grant as security for the card all shares
and dividends and all deposits and interest, if any, in all accounts you have with
us now and in the future.

14. Effect of Agreement. This Agreement is the contract which applies to all
transactions on your account even though the sales, cash advances, credit or
other slips you sign or receive may contain different terms. We may amend this
Agreement from time to time by sending you the advance written notice
required by law. Your use of the card thereafter will indicate your agreement to
the amendments. To the extent the law permits, and we indicate in our notice,
amendments will apply to your existing account balance as well as to future
transactions.
15. Joint Liability. Each person who has signed the application or applied for a
card will be individually and jointly responsible for paying all amounts owed
under this agreement. This means that the Credit Union can require any one of
you individually to repay the entire amount owed under this agreement. Each of
you authorizes the other(s) to make purchases or cash advances individually.
Any one of you may terminate the account and the termination will be effective
as to all of you. If applicable, notice to one applicant as to any matter pertaining
to the Credit Line (e.g., default, changes, periodic statements, etc.) shall
constitute notice to all applicants.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our
responsibilities under the Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR BILL.
If you think your bill is wrong, or if you need more information about a
transaction on your bill, write us on a separate sheet at the address listed on your
bill. Write to us as soon as possible. We must hear from you no later than 60
days after we sent you the first bill in which the error or problem appeared. You
can telephone us, but doing so will not preserve your rights.
In your letter, give us the following information:
•
Your name and account number.
•
The dollar amount of the suspected error.
•
Describe the error and explain, if you can, why you believe there is
an error. If you need more information, describe the item you are not
sure about.
If you have authorized us to pay your credit card bill automatically from your
savings or share draft account, you can stop the payment on any amount you
think is wrong. To stop the payment, your letter must reach us three business
days before the automatic payment is scheduled to occur.

YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE
RECEIVE YOUR WRITTEN NOTICE
We must acknowledge your letter within 30 days, unless we have corrected the
error by then. Within 90 days, we must either correct the error or explain why
we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question,
or report you as delinquent. We can continue to bill you for the amount you
question, including finance charges, and we can apply an unpaid amount against
your credit limit. You do not have to pay any questioned amount while we are
investigating, but you are still obligated to pay the parts of your bill that are not
in question.

16. Other Charges.
• No Annual Fee!
• No Late Fees!
• No Over limit Fees!
• No Cash Advance Fees!
• No Balance Transfer Fees!
• No Foreign Transaction Fees!
17. Copy Received. You acknowledge receipt of a copy of this Agreement.
DATE
Applicant
DATE
Co-Applicant
Visa 9.9% Based on your credit worthiness.
Visa 13.9% Based on your credit worthiness.

If we find that we made a mistake on your bill, you will not have to pay any
finance charges related to any questioned amount. If we didn't make a mistake,
you may have to pay finance charges, and you will have to make up any missed
payments on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as
delinquent. However, if our explanation does not satisfy you and you write to us
within ten days telling us that you still refuse to pay, we must tell anyone we
report you to that you have a question about your bill. And, we must tell you the
name of anyone we reported you to. We must tell anyone we report you to that
the matter has been settled between us when it finally is.
If we don't follow these rules, we can't collect the first $50.00 of the questioned
amount, even if your bill was correct.

SPECIAL RULE FOR CREDIT CARD PURCHASES

www.peopleschoicecreditunion.com
23 Industrial Park Rd • Saco, Maine • 04072
(207) 284-2444 or 877-785-6328 • FAX (207) 282-1735

If you have a problem with the quality of property or services that you
purchased with a credit card and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the remaining
amount due on the property or services. There are two limitations on this right:
(a) You must have made the purchase in your home state or, if not within your
home state, within 100 miles of your current mailing address; and
(b) The purchase price must have been more than $50.00.
These limitations do not apply if we own or operate the merchant, or if we
mailed you the advertisement for the property or services.

Rev 10/20

